ci\vi)(
RE: NO. 19-1253
Supreme Court, U.S.
FILED

1544 W. 25th Street
Jacksonville, Florida 32209

MAY 1 2 2020
OFFICE OF THE CLERK

May 12, 2020

Clerk of U. S. Supreme Court
The Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Kenneth Shelton vs. Anthonee Patterson
No. 19-1253
To the Clerk of the U. S. Supreme Court:
Being Pro Se in the above-referenced matter, I herewith filed a Waiver by letter
referencing Application No. 19A898 in this matter under date of April 27, 2020.
Same was sent via Express Mail at EJ256099531US (letter enclosed, proof of
mailing and receipt of mail).
As stated in our letter of April 27, 2020, this is Petitioner's second attempt to
obtain review by this Court and his appeal involves issues that this Court has
already considered and rejected in a prior petition docketed at 18-826 on January
2, 2019, which was denied on February 19, 2019.
Sincerely,
/s/ Bishop Anthonee J. Patterson
Bishop Anthonee J. Patterson
(904) 386-3108
Enclosures
Danielle Banks, Esquire
cc:
Mark Chopko, Esquire
Adam Brown, Esquire
B. Riley, Esquire

RECEIVED
MAY 1 5 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

